<html>
<title> - THE USE AND ABUSE OF GOVERNMENT PURCHASE CARDS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
             THE USE AND ABUSE OF GOVERNMENT PURCHASE CARDS
=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT EFFICIENCY,
                        FINANCIAL MANAGEMENT AND
                      INTERGOVERNMENTAL RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 13, 2002

                               __________

                           Serial No. 107-129

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform









                           U.S. GOVERNMENT PRINTING OFFICE
82-566                          WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

    Subcommittee on Government Efficiency, Financial Management and 
                      Intergovernmental Relations

                   STEPHEN HORN, California, Chairman
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
DAN MILLER, Florida                  MAJOR R. OWENS, New York
DOUG OSE, California                 PAUL E. KANJORSKI, Pennsylvania
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                        Justin Paulhamus, Clerk
           David McMillen, Minority Professional Staff Member






                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 13, 2002...................................     1
Statement of:
    Grassley, Hon. Charles E., a U.S. Senator from the State of 
      Iowa.......................................................     9
    Kutz, Gregory D., Director, Financial Management and 
      Assurance, U.S. General Accounting Office, accompanied by 
      John Ryan, Special Agent, Assistant Director, Office of 
      Special Investigations, U.S. General Accounting Office; 
      Captain James M. Barrett III, Civil Engineer Corps, U.S. 
      Navy, and Commanding Officer, Navy Public Works Center, San 
      Diego, CA; Captain Patricia A. Miller, Commanding Officer, 
      Space and Naval Warfare Systems Center, San Diego, CA; Tina 
      W. Jonas, Deputy Under Secretary for Financial Management, 
      Department of Defense; Deidre A. Lee, Director of Defense 
      Procurement, Office of the Under Secretary of Defense for 
      Acquisition, Technology and Logistics, Department of 
      Defense; and Danielle G. Brian, executive director, Project 
      on Government Oversight....................................    21
Letters, statements, etc., submitted for the record by:
    Barrett, Captain James M., III, Civil Engineer Corps, U.S. 
      Navy, and Commanding Officer, Navy Public Works Center, San 
      Diego, CA, prepared statement of...........................    76
    Brian, Danielle G., executive director, Project on Government 
      Oversight, prepared statement of...........................   115
    Grassley, Hon. Charles E., a U.S. Senator from the State of 
      Iowa, prepared statement of................................    16
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, prepared statement of.................     3
    Jonas, Tina W., Deputy Under Secretary for Financial 
      Management, Department of Defense:
        Information concerning property accountability...........   126
        Information concerning salary offset.....................   123
        Information concerning Tanya Mays........................   119
    Kutz, Gregory D., Director, Financial Management and 
      Assurance, U.S. General Accounting Office, and John Ryan, 
      Special Agent, Assistant Director, Office of Special 
      Investigations, U.S. General Accounting Office, prepared 
      statement of...............................................    25
    Lee, Deidre A., Director of Defense Procurement, Office of 
      the Under Secretary of Defense for Acquisition, Technology 
      and Logistics, Department of Defense, prepared statement of   100
    Miller, Captain Patricia A., Commanding Officer, Space and 
      Naval Warfare Systems Center, San Diego, CA, prepared 
      statement of...............................................    86
    Schakowsky, Hon. Janice D., a Representative in Congress from 
      the State of Illinois, prepared statement of...............     7


             THE USE AND ABUSE OF GOVERNMENT PURCHASE CARDS

                              ----------                              


                       WEDNESDAY, MARCH 13, 2002

                  House of Representatives,
  Subcommittee on Government Efficiency, Financial 
        Management and Intergovernmental Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:58 a.m., in 
room 2154, Rayburn House Office Building, Hon. Steve Horn 
(chairman of the subcommittee) presiding.
    Present: Representatives Horn and Schakowsky.
    Staff present: J. Russell George, staff director and chief 
counsel; Bonnie Heald, deputy staff director; Justin Paulhamus, 
clerk; Michael Sazonoff, intern; David McMillen, minority 
professional staff member; and Jean Gosa, minority assistant 
clerk.
    Mr. Horn. A quorum being present, the Subcommittee on 
Government Efficiency, Financial Management and 
Intergovernmental Relations will come to order.
    I have long believed that oversight hearings, such as we 
are holding today, shed light on important issues that need 
attention, and that such light encourages those in charge to 
fix the problem. I am delighted that in the audience are a 
number of individuals, top executives, that are going into the 
purchasing acquisition for DOD. I am delighted to have you in 
the hearings. I hope we can learn something from this morning's 
hearing. We are delighted that you will look at those laws and 
make sure that they are put and implemented in all of the 
contracts, so that they understand how these laws are. I thank 
you very much for being here.
    How many of you are here? Stand up, please, and see how 
many are in the class. Only one, two, three, four, five, six. I 
thought there would be about 30.
    So thank you very much. I hope you enjoy it. Sometimes it 
isn't enjoyable, but we'll do it.
    So I have long believed that these oversight hearings, such 
as we are holding today, shed light on important issues that 
need attention, and that such light encourages those in charge 
to fix the problem. In many cases, that has been a correct 
assumption, but you will hear today what, in part, dismisses 
congressional oversight as merely a nuisance that must be 
endured, but that can be ignored, is the attitude.
    On July 30, 2001, this subcommittee held a hearing 
examining the government purchase card programs at two Navy 
units in San Diego, the Space and Naval Warfare Systems and the 
Navy Public Works Center. Over the last few months, the General 
Accounting Office, which is the right arm of Congress for both 
programmatic review as well as fiscal review, the General 
Accounting Office auditors and investigators have examined 
recent card purchases at the two San Diego Navy units. One of 
the units, the Public Works Center, was cooperative in 
providing auditors with the documentation and information they 
needed to complete their job. Equally important, this unit is 
making a concerted effort to identify and eliminate abusive 
uses of the cards.
    It is another story at the Space and Naval Warfare Systems 
Center. According to the General Accounting Office, the Systems 
Center provided information that was often misleading and 
conflicting. Whether it is an attitude of leadership or a 
pervasive culture throughout the unit, Space and Naval Warfare 
Systems Center employees, most of whom are civilians, have 
continued using their government-guaranteed cards to buy 
extravagant personal items--all at taxpayer expense.
    It is about April 15th when people will be writing out the 
checks to give the Federal Government a revenue source for all 
that is going on with the war and with now getting Federal 
money for education throughout America, where we have a first-
rate education program, and the money is needed. It should not 
be wasted, as it has been, for personal use. These items 
include designer briefcases, tote bags, and day planners from 
Louis Vuitton and Franklin Covey, as well as high-quality, $30 
Bose headsets for listening to music.
    This abuse is of special concern because of the desire by 
many to increase temporarily the existing transaction limit on 
most purchase cards from $2,500 per purchase to $25,000 per 
transaction. This increase would apply to purchases that relate 
to the war against terrorism or defending the homeland against 
terrorism. That is where the money should go. Undoubtedly, this 
streamlined purchasing power might be needed. But before we 
consider that decision, we must be certain that proper controls 
are in place to stop the abuse of public funds which occurs. It 
isn't their money; it is we the taxpayers' money.
    That said, I welcome our witnesses, and we will start. The 
ranking member is here? If Ms. Schakowsky comes, she will have 
an opening statement.
    [The prepared statement of Hon. Stephen Horn follows:]
    [GRAPHIC] [TIFF OMITTED] 82566.001
    
    [GRAPHIC] [TIFF OMITTED] 82566.002
    
    Mr. Horn. Is Senator Grassley here? All right, he will be 
here in 1 minute, I am told. So we will be in recess just 
waiting for the Senator. If not, we will go on with the other 
panel.
    [Recess.]
    Mr. Horn. Mr. Kutz, Mr. Ryan, Captain Barrett, Captain 
Miller, Deputy Under Secretary Jonas, accompanied by Deidre A. 
Lee, Director of Defense Procurement, and Danielle G. Brian. 
Let's just line up the way it is. That is the way we will take 
them, as on the agenda, and leave a seat in the middle for 
Senator Grassley.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that the witnesses have 
affirmed the oath.
    We will now start. The ranking member is here and has an 
opening statement. So please start.
    Ms. Schakowsky. Thank you, Mr. Chairman, for holding this 
hearing, and I join you in welcoming our witnesses this 
morning. I will address three points in my remarks this 
morning.
    First, I am disappointed in the arrogance and disrespect 
for the American public shown by the Space and Naval War 
Center.
    Second, I am disappointed in the personnel at Naval Public 
Works for the fraudulent use of purchase cards. GAO reports 
that Public Works is making a serious effort at reform.
    Finally, I believe that the problems we will address today 
are not unique to these organizations, but rather are 
symptomatic of the acquisition culture at the Department of 
Defense. There is an attempt to return the Defense Department 
to the era of the $600 hammers and $3,000 toilet seats.
    GAO will report today on widespread abuse of the purchase 
card system at the Space and Naval Warfare Center. Purchase 
cards are used to buy luxury items like designer bags, personal 
digital assistants, and high-priced clothes. Purchase limit 
regulations were circumvented by splitting purchases to get 
below the limit. It would be an understatement to say that the 
program was managed badly at the Warfare Center. Management 
completely abdicated its responsibilities. This supposedly 
elite research center even tried to justify buying Lego robots 
from Toys R Us as a research expenditure.
    Those, however, are not the worst of the offenses. The 
personnel at SPAWAR argued first that these purchases were 
justified. Then they told the GAO that it didn't matter if 
digital cameras and clothes and luggage disappeared because 
naval regulations said they didn't have to account for items 
that are easily pilfered. In other words, if something is 
easily stolen, the problem is solved by not keeping track of 
those things.
    This morning the commander who testified last July is not 
here. The former commander retired. That, in and of itself, 
would not be noteworthy. However, the events surrounding this 
retirement are disturbing. The commander retired after refusing 
drug testing, refusing to have his car searched when he was 
selected for a random search, and for trying to get two of his 
subordinates to lie. For those abuses, the punishment was a 
$1,000 fine and retirement. The rumor is that, once Congress 
looks away, he will be back at work as a contractor--probably 
paid by a purchase card.
    What we have here is an organization that is completely out 
of control. There is no respect for laws or regulations. There 
is no accountability for fraud and abuse. When caught, they try 
to justify abusive purchases. Unfortunately, the departmental 
response to these problems has been weak.
    Last week Congressman Davis held a hearing on a proposal to 
raise the purchase limit on these cards to $25,000 per 
purchase. That proposal came from the Defense Department and 
those outside the government who provide goods and services. 
That would eliminate from competitive bidding 99.5 percent of 
the purchases made by the Federal Government.
    We have seen this program badly abused by the two units 
here today. I suspect that when GAO reports back to us this 
summer on its examination across the whole Defense Department 
we will see similar abuse.
    The Defense Department has not been a good steward of 
Federal funds. We should not put into their hands the tools to 
further abuse the public trust.
    There is, however, another question that must be addressed 
before we expand the use of purchase cards. These cards make 
purchasing more convenient for the government, but no one has 
actually looked at the cost of using these cards. Much of what 
is purchased with these cards could be purchased using the GSA 
schedule, a program where GSA negotiates lower prices because 
of the volume of government purchases.
    GAO has told us that purchase cards will account for nearly 
$20 billion in purchases this fiscal year or next. If there is 
a 5 percent waste in these purchases, that is $1 billion of 
waste.
    I am requesting, and I hope that the chairman will join me 
in this request, the GAO look at the purchases made using these 
purchase cards: How many of those items could have been 
purchased from the GSA schedule? Did the agency pay more or 
less using the purchase card than it would have going through 
the GSA?
    This program is 10 years old, and GSA has never done a 
careful examination of the program. Before we expand the use of 
purchase cards, we should have some facts about how the system 
is working today.
    Again, I thank you, Mr. Chairman, for calling this hearing, 
and I look forward to the testimony of our witnesses.
    [The prepared statement of Hon. Janice D. Schakowsky 
follows:]
[GRAPHIC] [TIFF OMITTED] 82566.003

[GRAPHIC] [TIFF OMITTED] 82566.004

    Mr. Horn. I thank you for your statement. Please work with 
the staff director and the deputy staff director, Ms. Heald, on 
what you have just asked. We will be glad to ask GSA and others 
about that.
    Now is Senator Grassley here anywhere? OK, well, we are 
going to start then. Oh, here we are.
    Senator Grassley, we've got a seat for you right there. It 
isn't as comfortable as Senate chairs, but it's the House. We 
are delighted to have you here.

STATEMENT OF HON. CHARLES E. GRASSLEY, A U.S. SENATOR FROM THE 
                         STATE OF IOWA

    Senator Grassley. Am I sitting with friends or enemies? 
[Laughter.]
    These folks in the defense of our country are not enemies. 
These folks ought to be congratulated for what they do at this 
particular time.
    Mr. Horn. Yes, they have been sworn under oath. So we 
thought we would put you in the middle there. You have done a 
great job on this particular issue, just as you have done on 
many other things.
    Senator Grassley. Thank you very much.
    First of all, let me apologize for being late. I had a 
group of college kids that I got too late. I thought if we had 
30 kids come from Iowa that wanted to ask their Senator a few 
questions, I ought to do that. That is the reason I am late. 
Thank you, Mr. Chairman.
    Mr. Horn. Yes, well, bring them here, if you would like. 
[Laughter.]
    By the way, there are 30 people here in the Executive 
Procurement Acquisition for DOD. They are in a course, and your 
testimony, mine, and the ranking member's testimony will, we 
hope, get through to them, because that is the first class that 
has ever been in a hearing here. We are delighted to have them.
    Senator Grassley. Yes. Mr. Chairman, I am here to share my 
views on the latest results of our ongoing oversight of abuse 
of the Department of Defense credit card. This is a joint 
effort that we have been supported by the General Accounting 
Office. It is an honor and privilege for me to team up with you 
on such important oversight work.
    What we are doing today is putting a spotlight on a 
problem. In a bureaucratic place like the Pentagon, the glare 
of public spotlight is never welcome, but shedding light is the 
heart and soul of oversight generally, and particularly of 
congressional oversight. Exposure is a great remedy enhancer.
    Every time I peer into the inner recesses of the Department 
of Defense credit card account, I see more abuse and more 
fraud, and that makes me ask myself, how bad can it be? So we 
need to keep the spotlight on full power and the beam focused 
on the problem until we get to the bottom of the pit and figure 
out what needs to be done.
    Today there are 1.7 million Department of Defense credit 
cards in circulation that generate over $9 billion in 
expenditures annually. There are two types of cards, the 
purchase card and the travel card. Most are travel cards. This 
is 1.4 million versus 200,500 purchase cards. Most of the 
dollars are for purchase card transactions, $6.1 billion per 
year versus $3 billion for the travel cards.
    A credit card is a financial instrument. It is a license to 
spend money. And every shred of evidence that I have seen says 
that the internal controls at the Pentagon are weak or 
nonexistent. Credit cards is a zero control environment, and in 
this environment it is a very dangerous one. That means that 
there is an army, 1.7 million strong, authorized to spend money 
with no checks and balances. The potential for abuse and fraud 
is virtually unlimited.
    Now I understand the thinking behind the credit cards, and 
the thinking is very, very good. Unfortunately, we see the bad 
in the execution of a very good policy. We want the men and 
women serving in the Armed Forces to have the tools that they 
need to carry out their duty. A credit card is one of those 
modern devices that is supposed to make it better and easier 
for them to get the job done quickly and effectively without a 
whole lot of wasteful paperwork.
    In simplifying the travel and purchase processes, each 
cardholder is given authority to spend money. The authority to 
spend money in the name of the taxpayer is obviously an awesome 
responsibility. That authority carries heavy responsibilities. 
Unfortunately, this awesome responsibility is not taken very 
seriously at the Pentagon. The criticism is not directed at 
Secretary Rumsfeld, because he is trying hard to cleanup a 
longstanding financial mess.
    My criticism is directed at those employees who are 
supposed to oversee the program. Department of Defense credit 
cards are issued willy-nilly with no credit checks. The results 
are predictable then. The cards are being abused with impunity. 
Department of Defense credit cards are being taken on shopping 
sprees, and the cardholders think they are immune from 
punishment, and they are, Mr. Chairman.
    We have zero accountability with purchase cards, zero 
accountability with travel cards until recently. That is the 
root cause of the problem. That is why we are having this 
hearing today, because of the lack of accountability. If there 
was accountability, it is obvious that this stuff would not be 
going on.
    In a moment the General Accounting Office will be telling 
you just how bad it really is. The General Accounting Office 
has examined 300 transactions at two Navy offices in San Diego. 
Despite a small sample, Mr. Chairman, the General Accounting 
Office has uncovered extensive fraud and abuse, and more is 
being found each day. We are looking at the tip of an iceberg.
    Here's a sample of some credit card abuse: in bars, strip 
joints, gambling casinos; for large cash withdrawals from ATM 
machines; clothing at upscale department stores like Macy's and 
Nordstrom's; designer leather goods and expensive luggage; gift 
certificates, $1,500 each; $200 robots at Toys R Us; groceries, 
kitchen appliances, home computers, and even a breast 
enlargement operation.
    So you name it; these cards are used for it, and it is all 
personal business. If they need it, they buy it with Department 
of Defense plastic and keep it; no questions asked.
    Now there is a proposal to raise the purchase limit from 
$2,500 to $25,000. If it goes up, new cars and homes might be 
next. The General Accounting Office's 300 transaction sample 
yielded over a half million dollars in fraudulent and abusive 
purchases. Either the taxpayers or the bank gets stuck with the 
bill, depending on which card is used. In either case, it is 
bad.
    For shopping done with a purchase card, the government is 
responsible for paying the bill, and most bills are paid 
promptly; no questions asked. With purchase cards, the 
taxpayers are the ones that get shafted, and get shafted right 
up front. To my knowledge, the government has never asked 
anyone to return an unauthorized purchase or repay the money, 
even when abuse is known to authorities.
    Travel card expenses, by comparison, are the responsibility 
of individual cardholders. The taxpayer is out of the loop, at 
least up front. When the cardholder incurs legitimate travel 
expenses, that person is supposed to file a travel voucher, get 
reimbursed, and then pass the money onto the bank, in this 
case, Bank of America. All too often, cardholders simply pocket 
the money, tax dollars, leaving the bank holding the bag. When 
the travel card is used to cover personal expenses, what 
happens with alarming regularity, those bills are paid late, 
very late, and sometimes never. With no interest charges, 
obviously, abusers get a free ride.
    The bank has equipped the Pentagon with an anti-fraud 
detection system. It is called EAGLS, acronym E-A-G-L-S. It 
gives agency program coordinators an online capability to 
detect unauthorized transactions on any account. It only takes 
a second to determine if a trooper is getting cash at the local 
ATM machine without orders, but nobody seems to be minding the 
store.
    As I said at our hearing in July, Mr. Chairman, if the 
Pentagon knows this stuff is happening, and if the Pentagon 
does nothing, then that makes the Department of Defense party 
to bank robberies, and the robbery is still in progress. The 
bank is sustaining unacceptable losses, and in the end we all 
pay higher prices, and the taxpayers get shafted as well. When 
the bank has to write-off bad debts, tax revenues are lost.
    So, Mr. Chairman, the bank has reached a breaking point. It 
is losing too much money. So, on February 11, 2002, the bank 
fired a warning shot across the bow. The bank is turning up the 
pressure. It has declared its intent to cancel the U.S. Army 
account, 413,029 cards, at midnight, March 25th, this month. 
That has really gotten somebody's attention, and in a hurry, 
and so there are now negotiations in progress.
    Mr. Chairman, there then is a glimmer of hope on the 
horizon. The reason for hope comes from a brand-new Department 
of Defense policy called salary offsets. Before I explain the 
new policy, it is important to understand why the Department of 
Defense travel card program is teetering on the brink of 
disaster. As of November 2001, 46,572 Department of Defense 
personnel had defaulted on more than $62 million in official 
travel expenses, and the bad debt was growing at the rate of $1 
million per month, making the Department of Defense default 
rate six times the industry average.
    For a business interested in profits, a pile of bad debt 
with no accountability made for an intolerable situation, 
obviously. So something had to give. In October 2001, the bank 
and the Department of Defense agreed to take action. The salary 
offset program then was born. There are now 31,579 accounts 
enrolled in the offset program. So far, offset payments total 
$5.2 million.
    As a garnishment, the salary offsets provide some measure 
of accountability, but actually have limitations. For one, the 
money was taken from the bank in big chunks, but it is repaid 
to the bank in small chunks over a long period of time. And 
there are loopholes. Ten percent of unpaid accounts will slip 
right through the net, due to retirements, bankruptcies, dollar 
offset limits.
    The bank still expects about $2 to $4 million a year to 
fall through the cracks and be written off as bad debt. But 
that's considered better, and it is also consistent with the 
industry average.
    In addition, most of the older accounts in default will 
never be captured by offsets. The bank will still have to eat 
$40 million of unrecoverable debt. Even though there isn't any 
hard data yet, the bank expects salary offsets to reduce the 
default rate to negligible levels. That's the good news.
    There is still bad news. Salary offsets are having little 
or no effect on high delinquency rates. Delinquencies have 
actually risen with salary offsets. That is because offsets 
don't kick in until 120 days plus or 4 months past billing. 
Payments are due within 30 days of billing. Today the 
Department of Defense has outstanding balances of $370 million. 
About 30 percent of the dollars owed for official travel 
expenses are more than 30 days past due; 15.4 percent are 60 
days past due. One in five Department of Defense accounts is 
overdue for payment. That is four to five times the industry 
average.
    The 3-month gap between the payment due date and offsets 
means that the bank has to float a loan. It is a free loan for 
the Department of Defense abusers that costs the bank $4 to $5 
million a year.
    A prime driver behind delinquencies is the use of the card 
to cover personal expenses. So, Mr. Chairman, you may remember 
at the last hearing I mentioned several cases involving 
egregious use of credit cards. Just a few of them:
    A marine sergeant, A. Lopez, who ran up a $19,581 bill for 
personal expenses and then left the service and the unpaid 
bills when his retirement was up.
    A person by the name of P. Falcon, with an unpaid bill of 
$9,847, including $3,100 spent at a nightclub.
    A dead sailor, T. Hayes, who spent $3,521.
    Q. Rivera, Army Reserve, whose wife spent $13,000 on a 
shopping spree in Puerto Rico.
    R. Walker, Air National Guard, with an unpaid balance of 
$7,428, including his wife's gambling debts.
    In the past 8 months that have passed since the hearing, 
only one of these accounts has been paid off. P. Falcon paid 
his bill. Every expense posted to his account was personal. He 
is under investigation.
    The others have the same large, unpaid balances that we saw 
last summer. Some are under investigation.
    More aggressive offsets and late fees might help bring this 
kind of abuse to a screeching halt. Some real leadership at the 
top would also help. One of the most powerful elements of 
leadership is setting an example of excellence. Setting a good 
example should include paying credit card bills on time.
    Officers should always set the example. Unfortunately, 
there are 713 commissioned officers who have defaulted on $1.1 
million in charges. All of these accounts are in charge-off 
status or unpaid for 7 months or more. Their ranks range from 
junior lieutenants up to senior colonels and a Navy captain. 
Individual unpaid balances top out at $8,000. Some of the 
charges on these accounts look suspicious and obviously need 
investigation. Commissioned officers who run up $1.1 million in 
bad debts set a terrible example for the rank-and-file.
    Somebody in the Pentagon needs to come down hard on officer 
scoff-laws. Credit card abuse in the military will never stop 
until the officers cleanup their act. So, Mr. Chairman, I am 
presenting to you a list of 713 commissioned officers who 
defaulted on their accounts, along with unpaid bills for each 
officer. I would like to have the committee take this, and I 
ask that it be placed in a confidential record at today's 
hearing.
    Mr. Horn. Without objection.
    Senator Grassley. Then I would also ask you, Mr. Chairman, 
to join me in a letter to Secretary Rumsfeld, because I would 
like him to see the list and determine what action should be 
taken in this matter.
    Mr. Horn. I am delighted to join you in that letter.
    Senator Grassley. OK, thank you very much.
    The General Accounting Office has uncovered a disturbing 
case involving alleged purchase and travel card fraud by one 
person, Ms. Tanya Mays. She was assigned to the Navy Public 
Works Department, San Diego. Ms. Mays took her purchase card 
Christmas shopping and in a few short days ran up a bill of 
$11,551 at Macy's, Nordstrom's, and Circuit City. She bought 
gift certificates worth $7,500, a Compaq computer, an Amana 
range--there's nothing wrong with Amana ranges, if you pay for 
them; they're made in Iowa--[laughter]--groceries and clothing, 
all at taxpayers' expense.
    Mr. Horn. I'm a Target man.
    Ms. Schakowsky. Actually, I have an Amana. [Laughter.]
    Senator Grassley. OK. She presented the bill to her Navy 
supervisor, who signed and certified it for payment, and it was 
paid in full. She also used her travel card to buy airline 
tickets for her son. The cost was $722. When Ms. Mays left the 
Public Works Department, she was allowed to keep her purchase 
card. I guess they figured that she needed help again, and they 
were right, she did, this time for a personal car rental, and 
Public Works gladly paid the bill.
    So, Mr. Chairman, I find the Mays' case very troublesome. 
She has allegedly made a number of fraudulent purchases. Yet, 
there seems to be total disregard for accountability. Ms. Mays 
has not been asked to repay the money she allegedly stole. No 
disciplinary action has been taken. In fact, she was moved into 
a bigger job and has been given a promotion effective October 
2001. She is now assigned to the Army's top-level Financial 
Management Office in the Pentagon, and I am told that she is in 
charge of cash integration.
    So, Mr. Chairman, when you put one of these cases under a 
microscope, it seems like the whole problem comes into much 
sharper focus. The Tanya Mays case is not unique, and I can 
guarantee that. Here's another.
    A Department of Defense employee by the name of Somchart 
``Nick'' Fungcharoen, he used his travel card exclusively for 
personal expenses. Over a period of 2 years he charged nearly 
$35,000, including medical expenses, $4,016. On the surface, it 
appears as if he spent most of the money romancing a waitress 
he met at the Hooters' Bar and Grill in Jacksonville, FL. Her 
name was Jennifer Gilpin.
    Mr. Horn. Senator, I'm going to have to interject for a 
minute. I've got a journal call on the floor. When you are done 
with that statement, if you would come up here, and we will 
have Mr. Kutz start his testimony----
    Senator Grassley. OK.
    Mr. Horn [continuing]. And then you will have a chance to 
dialog with GAO.
    Senator Grassley. OK.
    Mr. Horn. Then I will be back within the time.
    Senator Grassley. This gentleman used his travel card 
exclusively for personal expenses. Over a period of 2 years he 
charged nearly $35,000, including medical expenses of $4,016. 
On the surface, it appears that he had used this to romance a 
waitress.
    After they got to know each other, she asked him for money 
to have a breast enlargement operation. He agreed and took her 
to a surgeon, Dr. John J. Obi, M.D. Dr. Obi performed the 
operation and Fungcharoen used his Department of Defense credit 
card to pay the bill.
    When the relationship soured, the case ended up in small 
claims court, and the military man had retired on disability 
and wanted his money back. The judge became alarmed that 
Fungcharoen testified proudly that he had used his government-
issue credit card to pay the doctor. Fungcharoen whipped out 
the card in the courtroom and showed it to the judge. The judge 
examined the card and read on the inscription, ``For official 
government travel only.''
    The judge stated, in total disbelief, ``You paid for this 
breast enlargement with a government credit card?'' After the 
revelation, the judge said, ``Let's not go there.''
    This case is unique. It is unique because the cardholder 
paid his bill, though not always on time.
    I have two problems with the case. First, Fungcharoen used 
his card exclusively for personal business. Had he used the 
standard commercial card, he would have incurred stiff interest 
charges and penalty. He used the Department of Defense plastic 
to avoid costs that the rest of us have to pay. He got a free 
loan from the bank without asking. That is just one small step 
away from other worse forms of abuse.
    Second, the case underscores the total lack of oversight by 
the EAGLS crew. They were asleep at the switch, and a quick 
EAGLS check would have shown that he was making extensive 
unauthorized purchases around his home in Florida.
    And why did he have a card after retirement is obviously an 
important question. Like Ms. Mays, I guess he figured out that 
he needed it again.
    So, Mr. Chairman, accountability is the key. With no 
accountability, we can look forward to more egregious credit 
card abuse, relentless abuse. It will go on and on and on with 
impunity. A person who holds up a liquor store and takes $500 
in cash can go to jail for 15 years. If he used Department of 
Defense plastic to steal $12,000 with DOD plastic, like Tanya 
Mays allegedly did, you get a promotion, and that just doesn't 
seem to be right.
    People who abuse their government credit cards have to pay 
a price. Heads have to roll. When the price is right, the abuse 
then will end. If the abusers are forced to repay the money 
with penalties, the stealing will stop.
    I thank you very much, Mr. Chairman.
    [The prepared statement of Senator Grassley follows:]
    [GRAPHIC] [TIFF OMITTED] 82566.005
    
    [GRAPHIC] [TIFF OMITTED] 82566.006
    
    [GRAPHIC] [TIFF OMITTED] 82566.007
    
    [GRAPHIC] [TIFF OMITTED] 82566.008
    
    [GRAPHIC] [TIFF OMITTED] 82566.009
    
    Senator Grassley. I will do as the chairman suggested. I 
will be right up there.
    We would now call upon Mr. Kutz, the Director of Financial 
Management and Assurance at the General Accounting Office. Mr. 
Kutz.

 STATEMENTS OF GREGORY D. KUTZ, DIRECTOR, FINANCIAL MANAGEMENT 
 AND ASSURANCE, U.S. GENERAL ACCOUNTING OFFICE, ACCOMPANIED BY 
JOHN RYAN, SPECIAL AGENT, ASSISTANT DIRECTOR, OFFICE OF SPECIAL 
 INVESTIGATIONS, U.S. GENERAL ACCOUNTING OFFICE; CAPTAIN JAMES 
M. BARRETT III, CIVIL ENGINEER CORPS, U.S. NAVY, AND COMMANDING 
   OFFICER, NAVY PUBLIC WORKS CENTER, SAN DIEGO, CA; CAPTAIN 
PATRICIA A. MILLER, COMMANDING OFFICER, SPACE AND NAVAL WARFARE 
  SYSTEMS CENTER, SAN DIEGO, CA; TINA W. JONAS, DEPUTY UNDER 
  SECRETARY FOR FINANCIAL MANAGEMENT, DEPARTMENT OF DEFENSE; 
 DEIDRE A. LEE, DIRECTOR OF DEFENSE PROCUREMENT, OFFICE OF THE 
  UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY AND 
   LOGISTICS, DEPARTMENT OF DEFENSE; AND DANIELLE G. BRIAN, 
      EXECUTIVE DIRECTOR, PROJECT ON GOVERNMENT OVERSIGHT

    Mr. Kutz. Senator, good to see you chairing a House hearing 
here. Good morning.
    Senator Grassley. I can't believe it. [Laughter.]
    Mr. Kutz. It is a pleasure to be here to testify on our 
audit of Navy purchase cards. With me this morning is Special 
Agent John Ryan from our Office of Special Investigations.
    Purchase cards were introduced to the government in the 
1980's primarily to streamline the acquisition process for 
small purchases. Usage of purchase cards has grown quickly in 
the Federal Government, increasing from about $2 billion in 
1995 to nearly $14 billion in 2001.
    The Department of Defense purchase card activity was about 
$6 billion in 2001. With 230,000 purchase cards in the hands of 
DOD employees, effective internal controls are necessary to 
protect the government from fraud, waste, and abuse.
    Senator, I have a purchase card in my hand here that is 
also displayed on the monitor. As you can see, it looks like a 
normal credit card and can generally be used wherever 
Mastercard is accepted. However, notice, as you mentioned on 
the travel card, this one says, ``For official government 
purchases only.''
    Today I will discuss our followup audit of fiscal year 2001 
purchase card activity at two Navy units in the San Diego area, 
SPAWAR Systems Center, which I will refer to as SPAWAR, and the 
Navy Public Works Center, or Public Works. These units of 
primarily civilian employees serve critical roles in supporting 
DOD's mission.
    Our audit focused on implementation of the purchase card 
program, not its design. As you mentioned, Senator, used and 
controlled properly, the purchase card can benefit the Federal 
Government. The bottom line of my testimony this morning is 
that for fiscal year 2001 we again found significant breakdowns 
in internal controls over purchase cards at the two Navy units. 
These breakdowns contributed to fraudulent and abusive 
purchases and theft and misuse of government property.
    My testimony has three parts: first, the overall purchase 
card internal control environment; second, the effectiveness of 
key internal controls, and, third, examples of fraudulent, 
improper, and abusive purchases.
    First, our work has shown that the lack of a strong 
internal control environment leads to the risk of improper 
behavior. For fiscal year 2001, the control environment at both 
SPAWAR and the Public Works was ineffective. However, 
improvements were made by both units, including significant 
reductions in the number of cardholders, increased focus on 
training, and reductions in credit limits.
    A key factor impairing the control environment at SPAWAR 
was the management tone at the top. The former commanding 
officer testified last July that the purchase card program at 
SPAWAR had effective management controls. By denying before 
this subcommittee, and later to his staff, that there was a 
problem, he effectively supported the status quo.
    We are encouraged by the commitment of Captain Miller, the 
new commanding officer, to ensure that an effective, well-
controlled purchase card program is implemented at SPAWAR. 
However, we are concerned that there will be significant 
cultural resistance to change. For example, through the end of 
our audit, SPAWAR continued to rationalize many improper, 
abusive, and questionable purchases.
    A key factor in the improvements at the Public Works is the 
consistently proactive attitude demonstrated by Captain Barrett 
and his staff.
    Second, basic internal controls over the purchase card 
program remain ineffective during 2001 at both units, including 
independent documentation of receipt of goods and services and 
independent review and certification of the monthly credit card 
bill. Public Works' failure rate of 16 percent for receipt and 
acceptance was a significant improvement from the 47 percent 
failure rate in 2000.
    I will use the posterboard to illustrate how fraud can 
occur when these two key internal controls fail. As you can 
see, this excerpt from a purchase card bill is similar to a 
normal credit card statement. Most taxpayers closely review 
their monthly credit card bill to ensure that all the charges 
are appropriate.
    This extreme example is the December 1999 credit card bill 
that you mentioned, Senator, for a fraud case that Agent Ryan 
investigated. As you can see, somebody went on a Christmas 
shopping spree. This bill, which includes over $11,000 in 
fraudulent charges, was approved and paid for by the Public 
Works. Consistent with our 2001 findings, both controls failed, 
as the government never received these goods, and the bill was 
paid with no review. Fortunately, over a year later, the 
government got this money back. However, I think you will agree 
this is no way to handle taxpayer money.
    Third, given the weak controls, it is not surprising, 
especially for SPAWAR, that we identified potentially 
fraudulent, improper, and abusive purchase card transactions in 
2001. Examples of actual and potential fraud include 1,914 
compromised Navy accounts that were previously reported that 
were used to purchase jewelry, pizza, flowers, and tires; over 
$10,000 of charges by a safety product vendor that SPAWAR paid, 
despite the fact that no goods were received, and $164,000 of 
purchases from another SPAWAR vendor with no documentation that 
any goods or services were received.
    We have provided the listing of compromised accounts, which 
includes 78 SPAWAR and 10 Public Works accounts that were 
active to the Navy in January, and these accounts were finally 
canceled earlier this month. The two vendor cases I mentioned 
have been referred to Agent Ryan for investigation of fraud and 
abuse.
    We also identified the improper purchases at both SPAWAR 
and Public Works. Some of these purchases represented 
disbursement of government funds that have not authorized by 
law. Examples of improper purchases included food, clothing, 
and the rental of luxury automobiles.
    SPAWAR also improperly wrote 30 convenience checks over the 
$2,500 limit, for a total of $347,000. After we identified 
wasteful and improper usage, the Navy canceled SPAWAR's 
convenience check privileges.
    In addition to fraudulent and improper charges, we 
identified a number of abusive or questionable purchases by 
SPAWAR. These represent purchases that were at excessive cost, 
of questionable government need, or both.
    For example, as shown on the posterboard, we found 
purchases at SPAWAR including Louis Vuitton $250 day planners, 
which are also shown on the monitor; $195 leather tote 
handbags, again shown on the monitor; abusive and wasteful 
usage of cell phones; luggage such as wallets, passport 
holders, and backpacks that were given away; computer bags 
purchased in Italy and from Sky Mall for as much as $250 each; 
four sets of Lego toy robots that you mentioned, Senator, 
costing $200 each, none being in possession of the government; 
clothing, including the $140 jacket, which is also shown on the 
monitor; a $300 Bose headset that was used primarily to listen 
to music, and a questionable trip for 30 to Bally's Paris 
Casino in Las Vegas, at a cost to the taxpayer of $15,000 to 
$20,000.
    Consider this: For 2001, we audited less than 200 
transactions and found these abusive items, along with 
potentially fraudulent and improper purchases. In contrast, 
SPAWAR's stand-down review looked at 16,000 transactions, and, 
Senator, guess what they found--nothing. No fraudulent, 
improper, or abusive charges.
    In summary, the findings today reflect what can happen when 
financial management is broken and accountability is lost. 
These purchase card control weaknesses are reflective of the 
broader financial management problems facing DOD. It is 
interesting to note that there have been limited consequences 
for individuals that have misused the government purchase card.
    In light of the events of September 11th, and the Federal 
Government's short and long-term budget challenges, it is more 
important than ever that DOD get the most from every dollar 
spent. Secretary Rumsfeld has noted that billions of dollars of 
resources could be freed up for national defense priorities by 
eliminating wasteful
spending. The purchase card abuse I have just described is a 
small example of what he is talking about.
    Senator, this concludes my testimony. Mr. Ryan and I are 
available for questions after the other statements.
    [The prepared statement of Mr. Kutz and Mr. Ryan follows:]
    [GRAPHIC] [TIFF OMITTED] 82566.010
    
    [GRAPHIC] [TIFF OMITTED] 82566.011
    
    [GRAPHIC] [TIFF OMITTED] 82566.012
    
    [GRAPHIC] [TIFF OMITTED] 82566.013
    
    [GRAPHIC] [TIFF OMITTED] 82566.014
    
    [GRAPHIC] [TIFF OMITTED] 82566.015
    
    [GRAPHIC] [TIFF OMITTED] 82566.016
    
    [GRAPHIC] [TIFF OMITTED] 82566.017
    
    [GRAPHIC] [TIFF OMITTED] 82566.018
    
    [GRAPHIC] [TIFF OMITTED] 82566.019
    
    [GRAPHIC] [TIFF OMITTED] 82566.020
    
    [GRAPHIC] [TIFF OMITTED] 82566.021
    
    [GRAPHIC] [TIFF OMITTED] 82566.022
    
    [GRAPHIC] [TIFF OMITTED] 82566.023
    
    [GRAPHIC] [TIFF OMITTED] 82566.024
    
    [GRAPHIC] [TIFF OMITTED] 82566.025
    
    [GRAPHIC] [TIFF OMITTED] 82566.026
    
    [GRAPHIC] [TIFF OMITTED] 82566.027
    
    [GRAPHIC] [TIFF OMITTED] 82566.028
    
    [GRAPHIC] [TIFF OMITTED] 82566.029
    
    [GRAPHIC] [TIFF OMITTED] 82566.030
    
    [GRAPHIC] [TIFF OMITTED] 82566.031
    
    [GRAPHIC] [TIFF OMITTED] 82566.032
    
    [GRAPHIC] [TIFF OMITTED] 82566.033
    
    [GRAPHIC] [TIFF OMITTED] 82566.034
    
    [GRAPHIC] [TIFF OMITTED] 82566.035
    
    [GRAPHIC] [TIFF OMITTED] 82566.036
    
    [GRAPHIC] [TIFF OMITTED] 82566.037
    
    [GRAPHIC] [TIFF OMITTED] 82566.038
    
    [GRAPHIC] [TIFF OMITTED] 82566.039
    
    [GRAPHIC] [TIFF OMITTED] 82566.040
    
    [GRAPHIC] [TIFF OMITTED] 82566.041
    
    [GRAPHIC] [TIFF OMITTED] 82566.042
    
    [GRAPHIC] [TIFF OMITTED] 82566.043
    
    [GRAPHIC] [TIFF OMITTED] 82566.044
    
    [GRAPHIC] [TIFF OMITTED] 82566.045
    
    [GRAPHIC] [TIFF OMITTED] 82566.046
    
    [GRAPHIC] [TIFF OMITTED] 82566.047
    
    [GRAPHIC] [TIFF OMITTED] 82566.048
    
    [GRAPHIC] [TIFF OMITTED] 82566.049
    
    [GRAPHIC] [TIFF OMITTED] 82566.050
    
    [GRAPHIC] [TIFF OMITTED] 82566.051
    
    [GRAPHIC] [TIFF OMITTED] 82566.052
    
    [GRAPHIC] [TIFF OMITTED] 82566.053
    
    [GRAPHIC] [TIFF OMITTED] 82566.054
    
    [GRAPHIC] [TIFF OMITTED] 82566.055
    
    [GRAPHIC] [TIFF OMITTED] 82566.056
    
    [GRAPHIC] [TIFF OMITTED] 82566.057
    
    [GRAPHIC] [TIFF OMITTED] 82566.058
    
    [GRAPHIC] [TIFF OMITTED] 82566.059
    
    Senator Grassley. It is now my privilege to invite Captain 
James M. Barrett, Commanding Officer, Navy Public Works Center, 
San Diego, to testify. Welcome.
    Captain Barrett. Thank you, Senator. Good morning.
    As you mentioned, I am Captain Jim Barrett, Commanding 
Officer of the Navy Public Works Center in San Diego. I assumed 
command of the Center on August 24, 2001. I have submitted my 
written testimony statement for the record.
    In testimony before this subcommittee on July 30, 2001, my 
predecessor stated, ``I fully recognize that controls are a key 
element.'' He was committed to ensuring those controls were put 
in place. I am here to assure you that I have continued to 
address that commitment since taking command of the Public 
Works Center, San Diego.
    Prior to, during, and as a result of GAO's initial audit, 
PWC, San Diego, has worked tirelessly to improve the internal 
control environment of our purchase card program. As Mr. Kutz 
has mentioned, we have significantly reduced the number of 
cardholders; we have significantly reduced the credit limits of 
our purchase cardholders; we have greatly increased the number 
of approving officials that allows a more effective oversight 
for those cardholders.
    We have published supplemental guidelines and issued a 
revised command instruction on purchase card procedures. We 
have held numerous training sessions to address the issues 
raised by GAO during their initial audit. We have also held 
training sessions to address Navy policy changes resulting from 
GAO's audit.
    Mr. Chairman, I believe we have improved dramatically, and 
we are continuing our work to get better. That concludes my 
summary statement, subject to any questions you or the other 
committee members may have. Thank you, Mr. Chairman, for the 
opportunity to appear today.
    [The prepared statement of Captain Barrett follows:]
    [GRAPHIC] [TIFF OMITTED] 82566.060
    
    [GRAPHIC] [TIFF OMITTED] 82566.061
    
    [GRAPHIC] [TIFF OMITTED] 82566.062
    
    [GRAPHIC] [TIFF OMITTED] 82566.063
    
    [GRAPHIC] [TIFF OMITTED] 82566.064
    
    [GRAPHIC] [TIFF OMITTED] 82566.065
    
    [GRAPHIC] [TIFF OMITTED] 82566.066
    
    [GRAPHIC] [TIFF OMITTED] 82566.067
    
    [GRAPHIC] [TIFF OMITTED] 82566.068
    
    Senator Grassley. Thank you very much for your testimony.
    I now would call Captain Patricia A. Miller, Commanding 
Officer, Space and Naval Warfare Systems Center, San Diego. 
Welcome, Captain.
    Captain Miller. Good morning. Thank you, sir. Good morning, 
Senator Grassley.
    As you said, I am Captain Patricia Miller, Commanding 
Officer, Space and Naval Warfare Systems Center, San Diego. I 
assumed command on December 8, 2001. Senator Grassley, I have 
prepared a written statement, which I request be submitted for 
the record.
    Senator Grassley. It will be received.
    Captain Miller. Thank you, Senator. I will now briefly 
summarize my statement.
    First, I sincerely appreciate GAO's thorough and candid 
assessment in their recently completed command audit. As I told 
Mr. Kutz, I am personally committed to changing the culture at 
my command to permanently improve this important and vital 
program.
    As you know, the GAO found both continued weakness and 
significant improvements in our program. We agree there was a 
command climate that permitted these abuses. We agree there 
were several employees who used poor judgment in making 
purchases, and we did not serve our employees well by providing 
proper oversight to prevent these abuses.
    In summary, we agree with GAO's findings. We have made 
significant changes to correct these deficiencies and are 
working hard to implement GAO's recommendations.
    For example, we have reduced the number of cardholders by 
more than 30 percent. We have dramatically increased the number 
of approving officials, and are now far below the recommended 
Department of Defense cardholder-to-approving-official ratio. 
We have ensured these approving officials are personally 
accountable for statements submitted for payment and the 
cardholders under them.
    All approving officials and cardholders have received 
detailed training on appropriate purchasing behavior. We have 
strengthened our internal controls by implementing a process to 
randomly review purchase card transactions. We have implemented 
a semiannual command evaluation review to look at our processes 
and procedures to identify potential problems early. In 
addition, GAO has reviewed the Enterprise Resource Planning 
[ERP], System, and we have implemented their recommendations.
    Senator, I am personally committed to increasing our 
management oversight, training employees to establish a greater 
awareness of ethical and prudent purchases, and changing the 
command climate to ensure every single employee understands 
their ethical and fiduciary responsibilities. We are fully 
engaged in making the necessary changes to ensure that you and 
the public have trust and confidence in my command.
    Senator Grassley, I appreciate the committee giving me the 
opportunity to address this important issue, and I am now 
prepared to respond to any questions you may have. Thank you.
    [The prepared statement of Captain Miller follows:]
    [GRAPHIC] [TIFF OMITTED] 82566.069
    
    [GRAPHIC] [TIFF OMITTED] 82566.070
    
    [GRAPHIC] [TIFF OMITTED] 82566.071
    
    [GRAPHIC] [TIFF OMITTED] 82566.072
    
    [GRAPHIC] [TIFF OMITTED] 82566.073
    
    [GRAPHIC] [TIFF OMITTED] 82566.074
    
    [GRAPHIC] [TIFF OMITTED] 82566.075
    
    [GRAPHIC] [TIFF OMITTED] 82566.076
    
    [GRAPHIC] [TIFF OMITTED] 82566.077
    
    [GRAPHIC] [TIFF OMITTED] 82566.078
    
    Senator Grassley. I want to thank you for the responsible 
attitude toward change and correcting the problem, for both of 
our Captains in command there in San Diego. Thank you very 
much.
    It is now my pleasure to invite Tina W. Jonas, Deputy Under 
Secretary for Financial Management at the Department of 
Defense. Ms. Jonas.
    Ms. Jonas. Thank you, Senator. I am glad to be here this 
morning to talk about this issue.
    At the outset, let me say that the Department's senior 
leadership is seriously concerned about purchase card problems 
that are the focus of this hearing this morning. We will not 
tolerate failure to comply with established policies and 
procedures such as occurred with the purchase cardholders at 
some locations. We understand that, even if instances of fraud 
and abuse are caught early, they reveal a lapse in internal 
management controls, and such lapses cannot be allowed in so 
serious a business as America's national defense.
    For purchase cards, the most important role of my 
organization, the Comptroller's Office, is to strengthen all 
internal management controls, not merely those controls 
relevant to purchase cards. We are doing this as part of an 
unprecedented overhaul of the Department's financial 
management.
    Our efforts include both long-term and short-term 
initiatives. Long-term we are streamlining and standardizing 
the Department's financial and non-financial systems, 
transforming them into an integrated set of systems that will 
enable DOD leaders to get the timely, accurate, and complete 
financial information that is essential to strong internal 
controls.
    Short-term we are taking action to address immediate 
problems to facilitate our long-term initiatives and to work 
with the Department's senior leadership to overcome purchase 
card problems. For example, the Under Secretary of Defense 
Comptroller, Dr. Zakheim and the Under Secretary of Defense for 
Acquisition, Technology and Logistics, Pete Aldridge, recently 
issued a joint memorandum directing all components to ensure 
compliance with published purchase card and internal controls.
    These controls are consistent with the General Accounting 
Office's standards, and they include a maximum dollar limit for 
any single purchase, a maximum dollar limit for the cumulative 
value of all purchases made during the monthly billing cycle, 
limitations on the cards used to categories of merchants, if 
appropriate, or to a single merchant.
    It also includes requirements for the supervisor to 
receive, review, and, as necessary, question and adjudicate 
billing differences with each subordinate cardholder. I think 
this was one of the key faults that happened at the Navy, and 
we are working decisively on that problem. When implemented 
properly, these controls minimize losses from waste, fraud, or 
abuse.
    In addition, in the Department's internal management 
control program, we are making the purchase card program an 
area of special emphasis. This will force DOD components to 
review their internal controls for their purchase cards and 
report on the adequacy of those controls. I assure you that we 
will review those reports very carefully and followup with 
specific actions necessary to correct problems.
    We are also working with the audit community and subject 
matter experts, and we have identified potential fraud 
indicators for this program. For example, if the same person 
that makes a purchase also approves the bill for payment, this 
would be a red flag, and these types of indicators are being 
developed and software is being used to identify suspect 
transactions.
    We are also building a front-end edit that the purchase 
card contractors will use to flag suspect transactions for 
review before transactions are authorized. This is the same 
concept used by major credit card companies, but it is tailored 
to the DOD business model.
    Beyond the specific purchase card emphasis, the scope of 
our management controls extends to every activity an area of 
responsibility within the Department and its components, and 
our procedures apply to all financial, administrative, and 
operational controls.
    This past year the Comptroller implemented the first phase 
of an initiative to ratchet-up the management control program. 
In cooperation with the Assistant Inspector General for 
Auditing, we identified major areas that other senior leaders 
in the Department evaluated for coverage in the Annual 
Statement of Assurance in the Reporting Cycle.
    Also, this past year, for the first time, we required 
components to identify the cost to correct material and 
systemic weaknesses, and we required the components to specify 
performance metrics to gauge success in resolving identified 
weaknesses. This year, again, we will work with the Inspector 
General to identify issues and trends that need to be addressed 
by the DOD senior leadership, and we conduct periodic visits to 
component Headquarters' internal review organizations to ensure 
that they are appropriately resourced and effectively 
performing their missions.
    In closing, Mr. Chairman, the Department takes the matter 
of internal control seriously, and our most senior leadership 
will manage from the top-down and ensure the correction of 
those deficiencies identified by the General Accounting Office 
and the Office of the Inspector General.
    Thank you. I would be happy to take any questions.
    Mr. Horn. Thank you very much.
    We now have Deidre A. Lee, the Director of Defense 
Procurement, Office of the Under Secretary of Defense for 
Acquisition, Technology and Logistics, Department of Defense. 
Ms. Lee.
    Ms. Lee. Good morning, Chairman Horn. I'm a last-minute 
addition to this hearing, to affirm Defense Procurement's 
commitment to properly manage the defense purchase card 
program. You and I had a brief discussion during a hearing last 
week, and I just wanted to appear before you today and affirm 
again that commitment.
    The purchase card program is very important to the 
Department. As you know, we use it for a variety of methods. It 
has saved transaction costs, and it has in many cases put the 
purchaser closer to the requirements and shortened that 
timeframe. But it must be properly managed.
    As noted, the Public Works has an improvement program and 
has made some progress. The current situation at SPAWAR is 
unacceptable. We are working with Captain Miller and she has 
certainly stepped up-to-the-plate, starting in December, to try 
to remedy these situations.
    We have a two-prong approach. The first is to address the 
problems at SPAWAR, and the Department has taken the following 
actions: The purchase cards at SPAWAR have been suspended at 
the bank--that is not just through the user, but at the bank--
effective immediately. We then are going to reinstate a handful 
of the purchase cards to support mission-critical and essential 
fleet needs, and they will be reviewed by the local commander. 
The program office will monitor the transactions through the 
bank. We can actually go through the bank and see when those 
cards are used and what is turned back on, and we will do that.
    Then the cards will remain suspended until Captain Miller 
puts in her what we call a multi-step program, making sure 
people are trained, educated, understand the commitment, 
understand their responsibility. Then, little by little, with 
confirmation through senior leadership, we will reinstate that 
program and manage it very aggressively.
    We also have a training program that she has put in place, 
and everyone gets remedial training. They will be reminded of 
their duty to buy only minimum requirements, instead of, 
unfortunately, some of these luxury items we talked about. They 
will be reminded of their obligation to purchase through NIB/
NISH, the blind, the handicapped, the Federal Supply Schedules.
    We will also identify the review and certification process, 
that billing officials must be connected to the cardholder and 
know what they're purchasing and whether or not it applies to 
their job.
    We also have put in place a property accounting system. So 
when purchases are made, there's a matchup: Are they there? Do 
we have them?
    Then there also will be a very clear statement of what the 
situation is for violations of using that card. We are working 
with SPAWAR to do all of that.
    I am very serious about remedying the situation, and I 
intend to personally verify the situation improvements and 
report back to you by the end of May.
    Shifting to the departmentwide program, because, as GAO 
mentioned, we are also concerned, let's make sure we are doing 
this right across the Department, and with you, Mr. Chairman, I 
note that we have the Executive Contracting Course here. I am 
glad for them to hear this discussion, so they know how serious 
we are about improving this program.
    We have taken an approach across the Department as well. We 
have identified many activities, but mainly leadership, 
internal controls, and common sense are needed to use this 
program properly.
    We are going to review all the approval and certification 
procedures for officials. They have been instructed to do that. 
We've also reviewed how we appoint billing officials, how we 
appoint certification officials, the span of control.
    We are reviewing the establishment for account 
establishment: Who should have a card? Why? For what purpose? 
To what amount? And that includes the limits.
    We have instructed the card managers to review the 
flexibilities within the card. Can they block certain codes, 
certain merchant codes, certain vendors? And they have been 
reminded to do that.
    We are also making sure that appropriate resources are 
allocated. You can't just handout the cards and then not have 
the resources allocated to do the oversight. So we are focusing 
on that as well.
    We are going to have training for all purchase card 
accounts and also to emphasize leadership and oversight 
responsibilities. We have also partnered with DCAA, Defense 
Contract Audit Agency, the Inspector General, and have several 
things going on there, including an online training course that 
will be available by the end of the year which specifically 
addresses some of the things highlighted in GAO. We are using a 
software program where we can have oversight of the purchases.
    We have also put in place some additional--I have asked the 
IG to do an across-the-Department look. They now coordinate all 
purchase card reviews with the various inspector units and give 
us a quarterly report on what they've found. We will track down 
those trends and implement it across the Department program, 
not just at SPAWAR or Public Works.
    We also have an online software program where the 
cardholder is going to have to click on each transaction. The 
transaction then goes to the oversight, so that it has to 
follow the process of having appropriate review.
    So, Mr. Chairman, we are painfully aware of the issues with 
purchase cards, and I am here to personally commit that we will 
make sure these cards are used appropriately and make sure that 
our people understand their responsibilities, and we all live 
up to our commitment to the taxpayer.
    [The prepared statement of Ms. Lee follows:]
    [GRAPHIC] [TIFF OMITTED] 82566.079
    
    [GRAPHIC] [TIFF OMITTED] 82566.080
    
    [GRAPHIC] [TIFF OMITTED] 82566.081
    
    [GRAPHIC] [TIFF OMITTED] 82566.082
    
    [GRAPHIC] [TIFF OMITTED] 82566.083
    
    [GRAPHIC] [TIFF OMITTED] 82566.084
    
    [GRAPHIC] [TIFF OMITTED] 82566.085
    
    [GRAPHIC] [TIFF OMITTED] 82566.086
    
    [GRAPHIC] [TIFF OMITTED] 82566.087
    
    [GRAPHIC] [TIFF OMITTED] 82566.088
    
    [GRAPHIC] [TIFF OMITTED] 82566.089
    
    [GRAPHIC] [TIFF OMITTED] 82566.090
    
    Mr. Horn. Well, I thank you for your statement. You 
mentioned accountability. Now that accountability will come up 
the service line or the civilian line, or both?
    Ms. Lee. Both, sir, and including the financial side, Ms. 
Jonas, as well as the policy side from a procurement-specific 
standpoint, myself.
    Mr. Horn. Because there are also Inspectors General in the 
services.
    Ms. Lee. Yes, sir. We have asked the DOD Inspector General 
to coordinate all their audit reports and kind of look across 
the Department, what did each Inspector General at each service 
find, coordinate that and show us any trend data, any 
systematic problems.
    Mr. Horn. So we've got now a program that relates to 
education of these in terms of both the civilian and the 
service line?
    Ms. Lee. Yes, sir.
    Mr. Horn. Now I would like to know, what, if anything, has 
been done in terms of the court martial part, and is there 
anything to do with this type of bad behavior? Is there 
anywhere in the court martial situation, in the code of 
military justice, that one can be brought before on court 
martial? Otherwise, they are just laughing.
    Ms. Lee. Sir, if you are talking about the removal of the 
commander from SPAWAR, that was for a variety of actions. I 
understand it was not specifically the purchase card, but we 
have all kind of talked about the attitude or tone at the top 
that seemed to be underlying that situation, and that was one 
of the issues.
    Mr. Horn. Well, it's been about 30 years since I have 
looked at the court of military justice, when that was put out 
mostly in the Eisenhower administration. The question is, is 
there language in that one can violate and be brought up on 
that?
    Ms. Lee. I am not personally familiar with it.
    Mr. Horn. Now our last presenter is Danielle G. Brian, the 
executive director of Project on Government Oversight [POGO]--
nothing to do with the comic ``Pogo,'' but sometimes things 
seem that way. [Laughter.]
    Ms. Brian. Mr. Chairman, thank you for inviting me to 
testify at this hearing. As usual, this subcommittee is 
performing the very important job of overseeing the workings of 
the Federal Government. If only more committee chairmen and 
members of committees took that part of their job as seriously 
as you do.
    I am the director of the Project on Government Oversight 
[POGO]. Our organization investigates, exposes, and seeks to 
remedy systemic abuses of power, mismanagement, and 
subservience by the Federal Government to powerful special 
interests. Founded in 1981, POGO is a politically independent, 
non-profit watchdog that strives to promote a government that 
is accountable to the citizenry.
    Today we are talking about waste, fraud, and abuse of the 
Department of Defense, the agency that can't account for $1 in 
$4 it spends. I know defenders of DOD accounting procedures 
claim this is an unfair criticism, that the missing $1.1 
trillion is only a paper transaction. In these days of Arthur 
Andersen accounting, a firm, I might add, that continues to 
consult for nearly every Federal agency, my response is, show 
me the money.
    We have found that Federal agencies are loath to admit 
they're making a mess of things. The Pentagon must be forced to 
account for its expenditures of taxpayer dollars. I am 
particularly impressed when government officials such as those 
at the Navy Public Works put their energy into fixing a problem 
rather than denying or covering it up.
    Thanks to the work of Senator Grassley and his staff, 
Chairman Horn, and the GAO, we have been made aware of the 
abuses of Federal purchase cards, one of many Federal dollar 
sink holes at DOD. The GAO found that these purchase cards, as 
we have been hearing, have been used to buy personal items at 
two San Diego Navy installations. Despite the Pentagon's best 
efforts to pretend these were localized abuses, however, it is 
clear this is a systemic problem. Across the country and in a 
different service, this time the Army, similar abuses have been 
uncovered.
    In January 2000, two enterprising reporters at the 
Fayetteville Observer sent Freedom of Information Act requests 
for the receipts of more than 330,000 government credit card 
purchases by Fort Bragg cardholders. Among many others, they 
found charges of, for example, $981 for Atlanta Braves baseball 
tickets, $235 for Six Flags Magic Mountain tickets, and my 
personal favorite, $111 at Victoria's Secret.
    Some may say that those who would commit fraud will do so 
regardless, but creating a system where the oversight is 
largely the honor system is asking for trouble. One cardholder 
indicted for making over $17,000 in fraudulent personal 
transactions commented that illegal use of the credit cards was 
too easy, and that she was the sole authorizer of card 
purchases.
    We believe that for the most part the problem is not 
created by the existence of the purchase cards themselves, but 
with the reduced financial oversight that comes with what are 
called micro-purchases of $2,500 or less for each transaction. 
However, most of these unaccountable micro-purchases are made 
through the use of these credit cards.
    According to the Federal Acquisition Regulation, micro-
purchases may be awarded without soliciting competitive 
quotations if the contracting officer considers the price to be 
reasonable. A system that allows for non-competitive purchases 
without checks and balances is simply a bad idea. Allowing 
hundreds of thousands of government cardholders to make these 
purchases is lunacy.
    In addition to the outright fraud committed with the use of 
these purchase cards, a more damaging problem is the 
overcharging that also flies below the micro-purchasing radar 
screen. A 2001 DOD IG audit of micro-purchases at the Defense 
Supply Center in Philadelphia found that overcharging occurred 
in no fewer than 42 percent of the audit sample. Among the most 
egregious cases of overcharging was a $409 sink that should 
have been purchased for $37.
    Not surprisingly, both the GAO and the DOD IG have 
recommended strengthened internal controls to prevent such 
overcharging and outright fraud. But when Uncle Sam is paying 
the credit card bill, there are currently far too few 
deterrents to keep a credit cardholder from misusing these 
purchase cards.
    Incredibly, in the face of these findings, another 
subcommittee under Government Reform, the Subcommittee on 
Technology and Procurement Policy, held a hearing just last 
week on proposed legislation that would increase tenfold the 
micro-purchase threshold from $2,500 to $25,000 with no 
additional financial oversight, which is section 221 of the 
Services Acquisition Reform Act. I can imagine the headlines 
that will soon follow if this bad bill becomes law.
    This proposal to increase the government purchase card 
micro-purchasing threshold is simply a continuation of the 
efforts by acquisition reform lobbyists to reduce financial 
oversight and limit the ability of competition and free market 
forces to lead to smarter government spending. We have found 
that so-called acquisition reforms, which have gained currency 
in the past decade, have repeatedly been detrimental to 
oversight and accountability of Federal procurement and have 
resulted in increased expense to taxpayers. Who benefits? The 
contractors who have drafted this legislation.
    In our recent report, ``Pickpocketing the Taxpayer: The 
Insidious Effects of Acquisition Reform,'' we cite numerous 
findings by government auditors that show these reforms have, 
in fact, been deforms which limit competition and pretend 
prices for government purchases are determined by commercial 
forces when they are not.
    Mr. Chairman, I simply do not understand how we have come 
to a point where the founding principles of the American 
economy, free market forces and fair and open competition, are 
valued only when they don't apply to the government.
    The downward spiral away from competitive purchasing and 
toward more acquisition from the few remaining giant defense 
contractors is exacerbated by the use of government credit 
cards. The Office of Advocacy of the U.S. Small Business 
Administration is currently studying the effects of the use of 
government credit cards on small businesses.
    They have already concluded, ``Prior to acquisition reform, 
micro-purchases of $2,500 or less were reserved exclusively for 
small businesses.'' Today these purchases are no longer 
reserved for small businesses because many of these purchases 
are being acquired through the use of the government credit 
card. Nearly one-half million Federal employees may use the 
government credit card with any authorized merchant. There are 
few, if any, acquisition controls on the use of the card. Other 
than convenience, there is very little data to reveal that the 
government is getting the best price with the use of the credit 
card.
    In conclusion, Mr. Chairman, I hope you are successful in 
persuading your colleagues that reduced procurement and 
financial oversight at the Pentagon is not in the American 
public's best interest. Thank you.
    [The prepared statement of Ms. Brian follows:]
    [GRAPHIC] [TIFF OMITTED] 82566.091
    
    [GRAPHIC] [TIFF OMITTED] 82566.092
    
    [GRAPHIC] [TIFF OMITTED] 82566.093
    
    Mr. Horn. Thank you very much. I am going to ask a few 
questions going this way this time [indicating].
    Ms. Lee, I am wondering, what about the young woman who 
allegedly went on a pre-Christmas shopping spree using her 
government credit card? Was she reprimanded? According to the 
General Accounting Office, she has moved from a government 
salary grade of 11 to a grade 12. Where is she working now?
    Ms. Jonas. Mr. Chairman, the woman that you are talking 
about currently works for the Army, as I understand it. I have 
personally spoken to the Army Comptroller about this case. I 
have been advised that the case was under investigation, and 
she has assured me that they are checking with the General 
Counsel as to what disciplinary action can be taken.
    I also have spoken personally with the Navy Comptroller, 
Mr. Aviles, about this case because, apparently, if I've got 
the case right, a number of the abuses happened when this woman 
was with the Navy. The NCIS investigated the case. The 
assistant U.S. attorney was asked to look into it. I guess they 
have declined.
    I would like to submit the facts for the record, if you 
don't mind, because I'm doing this almost entirely from my 
memory.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 82566.094
    
    Ms. Jonas. But the assistant U.S. attorney apparently 
declined to prosecute, and I am uncertain at this moment--you 
know, I've heard two different facts on this, but I don't know 
whether it was because of the threshold or whether it was 
because of a lack of facts.
    But I am very concerned about that case. I know Sandra 
Pack, who is the Army Comptroller, who is new to the building, 
also just found out about this case. So we are very well aware 
of that case. We are trying to look into that and see what we 
can do.
    Mr. Horn. Well, I am sort of bemused that the Navy got away 
with passing off some of its people on the Army. I can't 
imagine the Army doing that and accepting it, but they probably 
didn't know a thing about it.
    Ms. Jonas. Right, yes, Mrs. Pack recently came into this 
job and it is one of the things that she inherited, but she is 
very well aware of it and personally assured me that she is 
talking with her General Counsel on ability to act against this 
person.
    Mr. Horn. Mr. Kutz and Mr. Ryan, who is the special 
investigator, do you have any comments on this situation?
    Mr. Ryan. The case was originally investigated by NCIS and 
presented to the U.S. attorney. They declined prosecution.
    Mr. Horn. Now which U.S. attorney was this?
    Mr. Ryan. The one in San Diego.
    Mr. Horn. San Diego. Now do they have some sort of dollar 
equivalent? I have seen that with some U.S. attorneys, ``Oh, we 
can't be bothered with this.'' I mean, what do we have to do, 
let somebody steal $2 million? I mean it all adds up when 
you've got little things going. But you need to have an 
example.
    Mr. Ryan. Well, they have prosecutive decisions and they 
make----
    Mr. Horn. What was their criteria for not taking the case?
    Mr. Ryan. I don't know. They just decided that they weren't 
going to prosecute the case. I think we would have to ask the 
U.S. Attorney's Office in San Diego to explain their decision.
    Mr. Horn. And I would like the staff to deal with the 
Attorney General on this and see what the criteria is and why 
they're not doing something about it. Do we have any of these 
cases anywhere else in the United States where a U.S. attorney 
has been given it and has just said, ``Sorry, I've got other 
things to do?''
    Mr. Ryan. Decisions on prosecution in judicial districts is 
a decision that is made by the U.S. attorney. The investigators 
present the facts, and a decision to prosecute is left with the 
Department of Justice. Each judicial district, from my 
experience, being an agent with Secret Service for over 20 
years, makes up their own mind, have their own criteria, and 
they decide whether or not they are going to prosecute or not 
prosecute. It really lies with the Department of Justice.
    Mr. Horn. Mr. Kutz, when the General Accounting Office 
discovers some of these things, and it isn't just this case, 
but it is all over the country, does the GAO turn it over to 
the U.S. attorney?
    Mr. Kutz. We oftentimes refer it to Agent Ryan, who does 
further investigative work, and also will work up a case and 
then forward it to the Navy Criminal Investigative Service or 
another investigative group in the Department of Defense, who 
would then present it to the U.S. attorney for prosecution. 
That is, indeed, what happened with the case you just 
described, Mr. Chairman.
    Mr. Horn. How many cases have you referred to Mr. Ryan?
    Mr. Ryan. Since I've been at GAO?
    Mr. Horn. Yes, and how many are accepted?
    Mr. Ryan. I really can't give you a number on the number we 
referred. We get a lot of information sent to GAO's BroadNet, 
allegations of fraud and abuse. We look at them. We interview 
the people making the allegations. We will build a case to a 
certain level, pass it onto the investigative body, either 
within the military or in the Executive side, the FBI or the 
Secret Service, for them to followup on the cases also.
    Mr. Horn. So you expect the Department of Defense in this 
case or the Department of the Navy to put those papers before 
the U.S. attorney?
    Mr. Ryan. I believe that's the best way to present it, yes.
    Mr. Horn. Does anybody in GAO say, ``We don't want to be 
bothered with that?'' Or do they let you do what you think your 
conscience does----
    Mr. Ryan. GAO is very proactive, ever since I have been at 
GAO, in pursuing, building-up these type of cases, developing 
the information, and making sure that the investigative bodies 
are fully aware and briefed. We make all our work papers and 
all our interviews available to the investigative bodies.
    Mr. Horn. Captain Miller, you have been put on this job. 
What day did you take over?
    Captain Miller. Sir, I assumed command on Saturday, 
December 8, 2001.
    Mr. Horn. Did you know what you were getting into? 
[Laughter.]
    Captain Miller. Unfortunately, yes, sir.
    Mr. Horn. I'm curious, could you explain what the GAO found 
where you got a highly sophisticated staff of scientists using 
four toy robots to assist them in their work, and I'm just 
curious, are they toys? They cost the taxpayers $800, I 
believe. Are they in the Navy's possession? Do they have a use 
for whatever the Navy is working on?
    Captain Miller. Mr. Chairman, the items in question, the 
purchaser felt that they had a valid government use. I 
personally can't see that. That, to me, is one of those cases 
of poor judgment. But the bottom line is we did not have good 
management controls in place, and we did not have proper 
oversight, or that purchase would never have been made.
    Mr. Horn. What about the various items of clothing and 
expensive handbags and daybook holders that the GAO put up on 
the charts? Are they listed in your inventory and are they 
under your control? Can other employees use them?
    Captain Miller. No, sir, they cannot use them. Those were 
purchased for personal reasons. I acknowledge the GAO's 
findings on that. Again, it boils down to poor management 
controls and poor oversight. We have taken positive steps, I 
believe, since December 8th to ensure that our training has 
been completed. All cardholders and approving officials 
understand their responsibilities, and I believe that we should 
see improvements.
    Mr. Horn. Captain Barrett, do you and Captain Miller work 
out some of the things that need to be done in both those 
commands, or are we doing it each separately in terms of 
accountability, in terms of inventory, in terms of following-up 
on this kind of thing?
    Captain Barrett. Mr. Chairman, it has been a relatively 
separate effort on our behalf. Our problems tend to be internal 
in nature. I won't argue that there are opportunities for 
lessons learned, and we will see if we can't increase that 
dialog in the future.
    Mr. Horn. Mr. Kutz, what would happen if someone in the 
private sector misused or fraudulently used their corporate 
card in this manner? Do you know any cases, any contractors, so 
forth?
    Mr. Kutz. No. What we did look at was for your hearing last 
summer in July, we looked at the number of cardholders or 
percentage of employees that held purchase cards at private 
sector corporations and found no more than 4 percent in large 
defense contractors. Now, again, they do different business 
than someone like SPAWAR, who has a lot of small projects. So I 
can see SPAWAR probably needing more credit cards, but I think 
that the industry standard is certainly that there are a lot 
less credit cards in the hands of people, and that was one of 
the things I will acknowledge that the Navy took significant 
action on since your last hearing.
    They had, at the beginning of 2001, 47,000 Navy purchase 
cards outstanding, and as of September 30, 2001, they were down 
to 27,000. So I think the recommendations we had and the 
hearing you had had a positive impact on Navy, and they took 
that issue seriously.
    I certainly believe that you would find stronger internal 
controls in the private sector over the usage of credit cards, 
and probably the disciplinary actions would be more swift and 
significant than what we have seen at the Department of 
Defense.
    Mr. Horn. Ms. Jonas, in your role as Deputy Under Secretary 
for Financial Management, the Department of Defense has begun 
offsetting wages to repay delinquent travel card bills. That is 
correct, is it?
    Ms. Jonas. That is correct, yes.
    Mr. Horn. Would it be possible to have a similar salary 
offset for the purchase card program for cases in which the 
government has inadvertently paid the bill for personal items?
    Ms. Jonas. That might be very appropriate in this case. If 
I can get back to the committee, we will look into it, and if 
that is appropriate. I will say the offset program for the 
travel card we hope to have a very beneficial effect. So far, 
we have collected about $21 million.
    In this we think it will be a significant deterrent, and we 
have to do more to deter people, send the signal from the 
various high levels that this is not going to be acceptable, 
and if you abuse a card, whether it be a travel card or a 
purchase card, we will be there and you will be paying for 
these things out of your own pocket, not out of the 
government's pocket.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 82566.095
    
    Mr. Horn. I am going to yield now 10 minutes to the ranking 
member for questioning.
    Ms. Schakowsky. Thank you, Mr. Chairman. I want to just say 
that Americans right now have, correctly, a very high regard 
for the men and women in our Armed Services, the efforts by our 
military to protect us against terrorist attacks and now with 
Homeland Security. It would seem to me that this would be a 
special time of obligation on the part of every person 
associated with our Defense Department to make sure that not 
any of that money is squandered.
    We are now going to be considering a budget that requests 
an unprecedented increase in the defense budget. I think that 
it is only appropriate that we scrutinize every dollar, every 
million dollars, every billion dollars. I think it was pointed 
out by Ms. Ryan that the financial disarray within the Defense 
Department has been criticized repeatedly. She mentioned the 
recent report. The DOD Inspector General found that in fiscal 
year 2000 alone $1.2 trillion in Department-level accounting 
entries ``were unsupported because of documentation problems or 
improper because the entries were illogical or did not follow 
generally accepted accounting principles.''
    When we talk about the abuses today, it seems to me that we 
are talking about a culture, not just a problem here or there, 
but a culture that has to be changed. I am so grateful to my 
chairman for continuing and following-up on that July hearing 
and finding out exactly what has happened since then.
    That is why I wanted to ask Ms. Lee, the pattern of abuse 
that we heard about today at SPAWAR was evident at our hearing 
last summer. Why did the Department do nothing to curb this 
abuse between last July and today? I mean, you sound very 
determined; everything is going to be changed. You had a lot of 
time to do that.
    Ms. Lee. Yes, Ma'am. The Navy had committed to doing some 
particular changes. There was a change in command, as you know, 
from that timeframe. That does not make it acceptable. We have 
to be more vigilant both at the specific site level, but at the 
oversight level to make sure that this time we truly deliver 
those changes.
    Ms. Schakowsky. I know you have detailed some things, and I 
hope that those will be sufficient, so that when we come back, 
Mr. Chairman, and look again, that something has really 
happened. Repeatedly, the Department has failed to meet the 
financial muster. So this is not the first time that we have 
heard things will be better. I guess I don't know any other way 
but to say firmly we absolutely expect them to be better.
    I wanted to ask Ms. Jonas, according to officials at 
SPAWAR, items like digital cameras and personal digital 
assistants don't have to be put on an inventory, and there's no 
need to account for them if they are lost or stolen. Is that 
Navy or DOD policy?
    Ms. Jonas. I believe that may be a Navy regulation. I will 
have to check our regs. But, in any circumstance, that is not 
acceptable. It is government property. Whether it is $1 or 
whether it is $2,500, it must be accounted for.
    I know that in the Department we have little barcodes for 
all the equipment in our offices, etc., and people are 
responsible for those inventories. So I will get with the Navy 
Comptroller to look at their regulations, and we will review 
our own regulations on accounting for property.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 82566.096
    
    Ms. Schakowsky. Because officials are using that as an 
excuse for the loss of these items. So are you saying that 
policy doesn't exist, that it will be changed, what?
    Ms. Jonas. I will look into it to review Navy regulations, 
and my own personal view on this is that there is no excuse 
whatsoever, none.
    Ms. Schakowsky. Does DOD have any regulations or guidance, 
something in writing, that would make it clear to employees 
that the purchase of luxury items like Coach briefcases is 
inappropriate?
    Ms. Jonas. I believe Dee Lee, who is here with me, can 
discuss the specifics of what they put out on the purchase 
card. I don't know if you were here--well, I discussed in my 
testimony, but Dr. Zakheim and Under Secretary Aldridge have 
recently put out a letter on this, and what appropriate use of 
cards is, and strict guidance. We expect at the very top that 
be carried out.
    Ms. Schakowsky. I mean, it would seem obvious that one 
doesn't use a government card for breast enhancement or 
Hooters, or whatever. So I don't know how one would actually 
state that, but are you saying to me that, until now, it hasn't 
been made explicit, that there have not been guidelines, Ms. 
Lee?
    Ms. Lee. Purchase of personal items is never acceptable. It 
is not acceptable now.
    Ms. Schakowsky. Has that been written?
    Ms. Lee. Yes.
    Ms. Schakowsky. Has that been in guidelines?
    Ms. Lee. They are for, as it shows on the card, ``For 
official government purposes only.'' Purchasing any kind of 
personal item is not acceptable.
    Ms. Schakowsky. So, in other words, no one should have been 
confused about that. So then nothing was in place to make sure 
that was carried out? Is that what you are basically----
    Ms. Lee. The oversight was lacking. We certainly should----
    Ms. Schakowsky. Or absent?
    Ms. Lee. Or absent. We should have had a billing official 
who was looking at each individual's card and saying, ``What 
are you buying? Why are you buying this?''--and taking 
immediate action.
    Mr. Kutz. Representative, we made a recommendation, based 
on the hearing last summer, that the Department come out with 
specific guidance on prohibited items, and they disagree with 
our recommendation. Ms. Lee is the one who signed that letter 
back to us.
    So there was a specific recommendation by the General 
Accounting Office that they list out specifically prohibited 
items, because I think their guidance is very, very general 
now, and you could drive an aircraft carrier through it. I 
think that they need to have very specific guidance on some of 
these items that it is prohibited to buy. I don't think it 
would hurt to do that, but they did disagree with that 
recommendation.
    Ms. Schakowsky. And, Ms. Lee, could you comment on that? 
Why would you disagree with that?
    Ms. Lee. Well, we will certainly relook at that, but our 
general guidance was personal items are never acceptable. So if 
we need to be more specific on what is a personal item, we 
certainly will look at that.
    Ms. Schakowsky. Well, obviously, someone was not getting 
it.
    Ms. Lee. Yes, Ma'am.
    Ms. Schakowsky. So I think that the imagination of those 
using the cards may make it hard to specifically list 
everything, because who ``wudda thunkit'' on some of these 
items that were purchased. Nonetheless, to reject as 
unnecessary on its face was patently untrue. Clearly, something 
was necessary. There must be something going on. The people 
feel that with impunity they can charge these things.
    So I would hope that you would relook at that since it was 
a specific recommendation, and I appreciate your bringing that 
to my attention. I would hope that, rather than sending another 
letter declaring it unnecessary, that instead you would figure 
out the comprehensive list.
    Let me ask you, I guess earlier you dealt with the issue of 
the former commander refusing a drug test and refusing a random 
car search, and trying to get, as I said in my opening 
statement, two subordinates to lie for him, and the fine was a 
$1,000 fine and he was allowed to retire. I am just wondering 
if this is typical punishment for someone who refuses a drug 
test in the Navy, Ms. Jonas.
    Ms. Jonas. The Secretary of the Navy, obviously, you know, 
he has control over the civilians and the military. I 
certainly, if I were in his shoes, would be personally looking 
into this. I have talked to the Assistant Secretary for 
Research and Development, who is one of the senior officials in 
the Department of the Navy, about the specific case and 
expressed my concern. I have also personally talked numerous 
times to the Navy Comptroller on this. I think they are both 
very concerned about it.
    In part, that concern led to the new direction, the new 
guidance, that Secretary Aldridge and Under Secretary Zakheim 
just put out. We are very concerned about this. I cannot 
explain to you how concerned we are about it. But I think with 
respect to specific actions taken by the Navy, I mean that is 
not within my purview, but if I were in his shoes, I would have 
no tolerance for that.
    Ms. Schakowsky. Fortunately, the Secretary of Defense has 
invited the Illinois delegation to meet with him tomorrow, and 
these are some questions that I can bring up.
    Let me, in the little time remaining, Ms. Lee, I have heard 
that you hold yourself out to the rest of the Federal agencies 
as leaders in providing business to the JWOD, the disabled 
vendors' support. I am wondering how you can hold yourself in 
the Department out as leaders when units like SPAWAR haven't 
even heard of JWOD and aren't using the--there's an example of 
that day planner there.
    Ms. Lee. They're Javits-Wagner-O'Day, and we call them NIB 
NISH, National Institute for the Blind and National Institute 
for the Severely Handicapped, and do have products that are 
mandatory source or at least first preference for the 
government to buy certain items. Among them are such things as 
day planners, pencils, pens, etc.
    That is being addressed again in our training program. Our 
contracting folks here know that. Again, SPAWAR is an 
unacceptable situation, and we have to remedy it.
    Ms. Schakowsky. Mr. Chairman, if I could just make one more 
remark--in addition, as part of our budget, we are also going 
to be looking at the reauthorization of the TANF or welfare 
program. I would guarantee that we are going to spend more time 
looking at every nickel that is spent that may be overpaid to a 
welfare mom out there trying to raise a couple of kids, and I 
am not excusing fraud or abuse anywhere, but it just seems to 
me, then, when we look at a department that has asked for $400 
billion, more than $1 billion a day, to be spent, then we had 
better pay attention to make sure, especially at a time when 
our Nation is threatened, to look at every single penny. Thank 
you.
    Mr. Horn. I thank the ranking member.
    Let me note--which one do you think, because we are going 
to close it down soon? But, Mr. Kutz, Senator Grassley and the 
subcommittee have asked you to broaden your examination of 
government purchase cards to other areas of the Department of 
Defense. I would not ask you to discuss this work in any 
particular detail. However, I will ask you whether you are 
finding similar misuses or fraudulent use of purchase cards in 
other areas of the Department of Defense or in other Cabinet 
departments.
    Mr. Kutz. Within the Department of Defense, I think, as you 
see today, the actual rubber hits the road far, far outside the 
Beltway. So the policy memos that come out from Headquarters 
oftentimes are not that well-distributed or known by people. So 
I think you are going to see, I guess, inconsistent application 
and inconsistent controls across. Some will be doing well and 
others are going to be more like SPAWAR. I think we are going 
to see a lot of interesting things in upcoming reports.
    Again, you are talking about 230,000 people holding 
purchase cards, and as Senator Grassley talked about, almost 2 
million people holding travel cards. That is a large program to 
control. Again, one of the things that we are looking at for 
both of those programs is controlling the number of cardholders 
out there, and particularly with respect to the travel card, 
looking at the issue of the credit checks, because really the 
credit checks is a key control in looking at travel cards.
    Mr. Horn. Well, the purchase card is certainly different 
than the card that any of us as government officials use in our 
travel for the actual ticket of the airplane and based on the 
per diem limits. One can eat anywhere they want for lunch, 
breakfast, you name it. That, to my knowledge, doesn't get 
really very exposed one way or the other, and it is nobody's 
business where they eat. So that is not the problem. But can 
they use that interest credit card to substitute for the ones 
we change and have in our wallet?
    Mr. Kutz. They look just like--I mean, I showed you earlier 
this card here. This is the purchase card. I have a travel card 
myself that I am supposed to use when I am on government 
travel. They just look like a normal credit card. So you could 
actually easily make a mistake if you pulled it out of your 
wallet and inappropriately use it without intentionally 
misusing it.
    But it is accepted at many vendors. One of the things that 
the Department has done and the banks have done is used what is 
called the MCC codes to block certain vendors. That is a 
control that is limited, but it is sometimes effective, 
preventing people from going to certain stores and types of 
vendors.
    But, again, the travel card you are talking about, there's 
actually two types of travel card. There's the individually 
billed card like the one that I have, where the bill comes to 
my home and I pay it myself, and then there's also centrally 
billed accounts, which large plane tickets are put on and other 
travel is put on. So that is a lot more like the purchase card, 
and we are actually looking at those two programs separately.
    Mr. Horn. In our case here in the Congress, we might use 
that or our own different one, Mastercard. Now the one the 
Congress has is the Visa card. We file the papers that we took 
the plane thing and the food, and all that, and that goes back 
through our Office of Finance. If there's something screwy 
about it, they let us know. Sometimes it happens where one of 
your staff members does that, but they certainly don't get into 
this business of the interest cards that we are talking about 
with the Navy here.
    Do we know there is that type of abuse throughout part of 
the executive branch or what? How is GAO dealing with it?
    Mr. Kutz. The other agency we have looked at 
comprehensively is the Department of Education, but their 
program is extremely small compared to the Department of 
Defense. The whole Department of Education's program would be 
about the same as each one of the Navy units we are talking 
about here. But there were significant findings of fraud and 
abuse that the General Accounting Office reported out of the 
Department of Education.
    We are planning to look for this subcommittee at several 
other executive branch agencies, and we will report back on 
what we find in other agencies.
    Mr. Horn. I think the Education Committee certainly has 
looked at this in terms of the debt that has been created in 
education.
    Mr. Kutz. They were planning a hearing today actually, and 
it has been postponed, but they are going to have another one 
on their purchase card at Education.
    Mr. Horn. Now listening to all this, do you think that the 
transaction level ought to move from $2,500 to $25,000, which 
is in a bill of my colleague, Mr. Davis? Ms. Lee was one of the 
witnesses, and so forth. We raised these questions in that 
particular area. What would GAO recommend?
    Mr. Kutz. I don't think it would be necessary to give all 
230,000 purchase cardholders at the Department of Defense a 
$25,000 micro-purchase limit. That does not seem to be 
reasonable. Would it make sense to have a small group of 
tightly controlled cards have that? Yes, that might make sense 
for the war on terrorism or whatever need they may have to have 
the larger micro-purchase limit. But I would express 
significant caution to the subcommittee and the Congress with 
respect to just doing this, giving the DOD a blanket 230,000 
cards with a $25,000 micro-purchase limit.
    Mr. Horn. Well, I would think that those that have to--we 
used to say, if the officers didn't get a good Master Sergeant, 
they didn't get very far. Those that are in supply and 
procurement, when they need to do something on the military 
side, then, obviously, that level would be maybe not enough. 
But somehow it ought to be with a signoff of somebody when they 
review the paper.
    Mr. Kutz. The Department currently has some cards that have 
$25,000 single transaction limits to pay for things such as 
training, and they also have some $100,000 cards that are used 
for small purchases on contract basically. So there is 
currently a procedure where they have certain cards with higher 
limits. Now, again, that is a little bit different than what 
you are talking about, which it sounds like it is giving the 
entire Department a $25,000 micro-purchase for all the cards.
    Mr. Horn. So what are you going to do with that, Ms. Lee? 
If the bill goes through, Mr. Davis', are there going to be 
blanket $25,000 cards?
    Ms. Lee. If the bill passes, obviously, we will have to put 
it in place with strong oversight and make sure that we do all 
these things we talk about for the cards, regardless of the 
limit.
    Mr. Horn. Well, that is good to know, but we will just have 
GAO looking every other month, right?
    So are there any other things you would like to say, any of 
you presenters, on the record? Please tell us. If you say 
something's hogwash, I would like to clarify it. So any of you 
want to? GAO, any comments? Navy?
    Captain Barrett. No, sir.
    Mr. Horn. Department of Defense?
    Ms. Jonas. Mr. Chairman, I would just like to say a lot of 
people say they don't want to come up and testify, but this 
sunshine really does help us. I mean, as you notice and as the 
Congressman noted, it is a big cultural change for the 
Department. There is a lot of education that has to go on. A 
lot of people really truly don't understand what the 
responsibilities are of having a card. We need to get the 
message down to the very lowest levels. As Greg mentioned in 
his testimony, sometimes it is very hard to get the message out 
from the highest levels to the lowest levels, but we are 
committed to doing that. We really appreciate your work here at 
this committee, and we will do our level best to try to correct 
many of these problems.
    Mr. Horn. Yes, I got a bill through on transitions between 
Presidencies, and they have various types of material that they 
bring to not just the Cabinet members, but also the various 300 
to 3,000 Presidential appointees, especially Assistant 
Secretaries, and so forth. So they would be looking at the 
ethics, which has bogged down every administration, because it 
takes so long to fill out the forms and all the rest of it. But 
somehow we've got to get that into those that get these very 
honored appointments.
    Yes?
    Ms. Schakowsky. Ms. Jonas, I just want to respond to what 
you said, that it is clear that there are too many people who 
don't understand how those cards can be used. I think they 
understand perfectly. I think what they understand is that they 
can get away with these kinds of purchases. I don't think that 
anyone in their right mind would think that they could take a 
government card and purchase these luxury items. What they 
think is that I can do it and I can get away with it. I think 
there has to be a much harsher approach to this, that it is 
fraud and it is abuse, and it has to stop. If they don't 
understand, then they have no place in our Armed Services, in 
our Defense Department.
    Ms. Jonas. I would agree. I didn't mention this in my 
testimony. One of the things that we are looking at, and are in 
discussions with OMB, is a legislative proposal to hold 
accountable officials financially liable. We hope to be sending 
that over to you. But I think that would be another significant 
deterrent, including the offset. I apologize if I--I think my 
comments were meant to intend that we need to do a very good 
job at letting every individual in the Department, every 
military officer, every civilian who has this privilege know 
exactly, clearly, unambiguously, what the responsibilities are 
with the card.
    Ms. Schakowsky. And what the consequences will be.
    Ms. Jonas. Absolutely, yes.
    Ms. Schakowsky. Thank you.
    Mr. Horn. That's good news. It looks like you are getting 
things done. I have great affection and feelings for the 
Secretary of the Navy. He is a first-rate person. Does he know 
about all this? Anybody in Defense, DOD, say, ``Mr. Secretary, 
you ought to know what's going on in your Navy?''
    Ms. Lee. We have been talking with John Young, who is the 
AT&L for the Secretary. I don't know his personal 
conversations----
    Mr. Horn. Stop the bureaucracy bit. ATL?
    Ms. Lee. Oh, Acquisition, Technology and Logistics.
    Mr. Horn. Yes. Well, we humans up here don't always know 
this stuff, and we know the rigmarole that tries to get past 
us. [Laughter.]
    But that is why I stop on everything----
    Ms. Lee. Been here too long already, huh, Mr. Chairman?
    Mr. Horn. Yes. Stovepipe is my other beef in the 
bureaucracy.
    But, anyhow, I think the Deputy Under Secretary has got it 
moving in the right place, but I would think the Secretary of 
the Navy ought to know this is going on and not be blindsided 
when he comes up here for the Armed Services or whatever.
    I thank you very much for that.
    I am going to thank the following people who put together 
this interesting hearing: J. Russell George is the staff 
director and chief counsel, right behind me; Bonnie Heald, to 
my left, is the deputy staff director, that put the hearing 
together. Justin Paulhamus is the majority clerk, and Michael 
Sazonoff is the subcommittee intern. We have our court 
reporter, Joan Trumps. We thank you all for helping us on this.
    Ms. Schakowsky. And we thank David McMillen for his help.
    Mr. Horn. Thank you. With that, we are adjourned.
    [Whereupon, at 11:45 a.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]

                                   - 

</pre></body></html>
